    Report No. D-2007-045                                  January 10, 2007




          Acquisition of the Precision Guided
              Mortar Munition Program




This special version of the report has been revised to omit For Official Use Only information.
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
GAO                   Government Accountability Office
IG                    Inspector General
PGMM                  Precision Guided Mortar Munition
                    Department of Defense Office of Inspector General
Report No. D-2007-045                                                     January 10, 2007
      (Project No. D2006-D000AE-0195.000)

        Acquisition of the Precision Guided Mortar Munition Program (U)

                                     Executive Summary (U)

(U) Why You Should Read This Report. This report discusses internal control issues
that combat developers should address when preparing capabilities documents and
defining key performance parameters for essential weapon-system requirements.

(U) Background. The Precision Guided Mortar Munition (PGMM), an Army
Acquisition Category II program, is a laser-guided 120-millimeter mortar designed to
launch from standard 120-millimeter mortar tubes on existing platforms. The mortar
locks onto a target and maneuvers to hit and destroy that target. The PGMM will defeat
personnel under protective cover such as bunkers, buildings, and lightly armored
vehicles, causing low collateral damage. The Army is acquiring the PGMM using the
evolutionary acquisition process and intends to develop three increments for the program.
Increment I of the program will defeat targets at ranges of 7.2 kilometers or greater with
precision and lethality when fired from current mortar systems and with at least
90 percent reliability. As of October 2006, Increment I was in the system development
and demonstration phase of the acquisition process. For Increment I, the Army plans to
acquire ******* PGMM mortars totaling as much as **************. Increment II
will be as lethal, compatible, and reliable as Increment I at an increased range.
Increment III will extend the range of Increment II and will provide the full operational
capability needed by the warfighter.

(U) Results. The PGMM Program had internal control weaknesses associated with
executing key performance parameters for the PGMM Increment I range requirements
and with developing Increment II as identified in the operational requirements document.
The following two findings discuss those internal control issues.

      •    The Deputy Product Manager for Mortar Systems did not require the contractor to
           design PGMM Increment I to meet the 8-kilometer range key performance
           parameter specified in the operational requirements document. As a result, the
           Army increased the risk of program reevaluation, reassessment, or termination by
           not satisfying the warfighter range requirement for Increment I. The U.S. Army
           Training and Doctrine Command needs to determine whether the 8-kilometer
           range requirement is needed to support the Future Combat Systems operational
           requirements and whether that requirement should be a key performance
           parameter in the requirements document for PGMM Increment I. In addition, the
           Deputy Product Manager for Mortar Systems needs to update the acquisition
           strategy, contract statement of work, and testing procedures, as needed, based on
           the decision made by the U.S. Army Training and Doctrine Command regarding
           the 8-kilometer range key performance parameter for Increment I (finding A).

*
    For Official Use Only information omitted.
   •   The U.S. Army Training and Doctrine Command did not adequately justify the
       warfighter need for PGMM Increment II that would extend the operational range
       of the PGMM to 10 kilometers. As a result, the Army may incur unnecessarily
       programmed costs of $26 million for that incremental range increase and may
       delay the development of the PGMM full operational capability needed by the
       warfighter in PGMM Increment III. The U.S. Army Training and Doctrine
       Command needs to determine whether a warfighter need exists for the PGMM
       Increment II interim range increase and update the analysis of alternatives, as
       appropriate, after that determination. In addition, the Deputy Product Manager
       for Mortar Systems needs to update applicable acquisition documentation for the
       PGMM Program after the U.S. Army Training and Doctrine Command makes its
       determination on PGMM Increment II (finding B).

(U) The Army’s internal controls for establishing capability requirements for the PGMM
Program were not adequate. We identified a material internal control weakness in the
process used to develop the range key performance parameter for PGMM Increment I
and to establish the need for Increment II as identified in the operational requirements
document.

(U) Management Comments and Audit Response. We received comments from the
Director, Army Capabilities Integration Center, responding for the Commanding General,
U.S. Army Training and Doctrine Command, and the Product Manager for Mortar
Systems, responding for the Deputy Product Manager for Mortar Systems.

(U) Although the Director nonconcurred with the recommendation to determine whether
the 8-kilometer range requirement is needed to support the Future Combat Systems
operational requirements and whether that requirement should be a key performance
parameter in the requirements document for PGMM Increment I, he suggested corrective
action that met the intent of the recommendation. He concurred with the
recommendations to determine whether a warfighter need exists for the PGMM
Increment II interim range increase and to update the analysis of alternatives, as
appropriate, after that determination. In his comments, the Director indicated that
PGMM Increment I may provide the Army with a precision guided engagement
capability against the majority of required targets and that future PGMM increments,
supported by additional analysis, would address the remaining targets, increased range,
and non-line of sight mortar capabilities. During our audit follow-up process, we will
determine the results of the Army’s analysis of future PGMM increments; the need for
programmed costs of $26 million for Increment II; and, if not needed, whether those
funds would be put to better use.

(U) The Product Manager concurred with the recommendations to update the acquisition
strategy, contract statement of work, and testing procedures, as needed, based on the
decision made by the U.S. Army Training and Doctrine Command regarding the
8-kilometer range key performance parameter for Increment I. The Product Manager
also concurred with the recommendation to update applicable acquisition documentation
for the PGMM Program after the U.S. Army Training and Doctrine Command makes its
determination on PGMM Increment II. See the Finding sections of this report for a
discussion of the management comments and the Management Comments section of this
report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                           i

Background                                                                  1

Objective                                                                   3

Review of Internal Controls                                                 4

Findings
     A. Increment I Range Requirement                                       5
     B. Warfighter Need for Increment II                                   11

Appendixes
     A. Scope and Methodology                                              16
          Prior Coverage                                                   17
     B. Information Assurance Compliance Issues                            18
     C. DoD Office of Inspector General Memorandum Concerning
          Compliance Issues                                                20
     D. Deputy Product Manager for Mortar Systems Response to DoD Office
          of Inspector General Memorandum                                  21
     E. Glossary                                                           22
     F. Management Comments on Finding A and Appendix B and Audit
          Response                                                         27
     G. Report Distribution                                                30

Management Comments
     U.S. Army Training and Doctrine Command                               33
     Product Manager for Mortar Systems                                    38
Background (U)
    (U) This report addresses the acquisition of the Precision Guided Mortar
    Munition (PGMM). Specifically, the report findings address the range key
    performance parameter established for Increment I and the need for Increment II
    of the PGMM Program. The audit is a continuation of the audit of the
    “Acquisition of the Precision Guided Mortar Munitions Program,” which was
    announced on September 16, 2004. The initial audit identified two compliance
    issues relating to the information support plan and the system security
    authorization agreement before cancellation of the audit in October 2005.
    Subsequently, the PGMM Program Office took corrective action on those issues.
    Appendix B provides a discussion of those issues and corrective actions being
    taken. Appendix E is a glossary of technical terms used in this report.

    (U) Precision Guided Mortar Munition. The PGMM, an Army Acquisition
    Category II program, is a laser-guided 120-millimeter mortar designed to launch
    from standard 120-millimeter mortar tubes on existing platforms. Using onboard
    sensors and guidance and control subsystems, the mortar locks onto a target and
    maneuvers to hit and destroy that target. The PGMM will defeat personnel under
    protective cover such as bunkers, buildings, and lightly armored vehicles, causing
    low collateral damage. The following figure shows the PGMM cartridge.




    Source: http://www.atk.com/AdvancedWeaponSystems/advanceweaponsystems_pgmm.asp

    (U) Precision Guided Mortar Munition


    (U) PGMM Acquisition Strategy. The PGMM concept began in FY 1995 with
    an advanced technology demonstration effort to fulfill a U.S. Army Infantry
    Center requirement for a precision mortar round. On December 17, 2001, the
    Assistant Secretary of the Army (Acquisition, Logistics, and Technology) and the
    Army Deputy Chief of Staff for Programs [renamed the Army Deputy Chief of
    Staff (G-8)] directed an incremental development approach as part of an
    evolutionary acquisition strategy to obtain the PGMM capability. The PGMM
    incremental development approach has three increments, as shown in the figure
    on the following page.




                                         1
Source: U.S. Army Infantry Center
           Acronyms:
           BMS                Battalion Mortar System               FCS               Future Combat Systems
           km                 Kilometer                             mm                Millimeter
           NLOS               Non-Line of Sight Vehicle             O                 Objective
           R-Concrete         Reinforced Concrete                   Stryker-MC        Stryker-Mortar Carrier
           T                  Threshold

           (U) PGMM Increments and Key Performance Parameters


           (U) PGMM Incremental Development and Key Performance
           Parameters. Each of the three PGMM increments contains four key performance
           parameters, as shown in the figure. Those key performance parameters are
           lethality, range, compatibility, and reliability.

                  (U) PGMM Increment I. The operational requirements document1 for
           the PGMM requires Increment I to engage targets and incapacitate personnel
           located within earth and timber bunkers, standard brick-over-block masonry

1
    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12, 2003, states that,
    during system development and demonstration, the capabilities development document (previously the
    operational requirements document) will specify the detailed operational performance parameters.
    Further, the Instruction states that the capabilities production document instead of the operational
    requirements document will specify the operational requirements for the performance expected of the
    production system. In this report, we use the term operational requirements document because the
    PGMM Program has an operational requirements document.


                                                      2
           structures, and stationary lightly armored vehicles. Those targets are to be
           defeated at ranges of 7.2 kilometers or greater with precision and lethality when
           fired from current mortar systems or at ranges of 8 kilometers or greater when
           fired from a Future Combat Systems Non-Line of Sight Mortar vehicle.2 Further,
           the PGMM will be compatible with existing and future 120-millimeter mortar
           systems and be at least 90 percent reliable. The PGMM Increment I is in the
           system development and demonstration phase of the acquisition process. For
           Increment I, the Army plans to acquire ******* PGMM mortars totaling as
           much as ********.

                   (U) PGMM Increment II. Increment II must be as lethal, compatible,
           and reliable as PGMM Increment I. However, it must be also able to accurately
           engage and incapacitate high priority targets at ranges of 10 kilometers or greater.

                   (U) PGMM Increment III. Increment III must be as lethal, compatible,
           and reliable as PGMM Increment II. However, it must also be able to defeat
           moving lightly armored vehicles and accurately engage and incapacitate high
           priority targets, including personnel in triple-brick or reinforced concrete masonry
           structures at ranges of 12 kilometers or greater and have the ability to maneuver
           off of the gun target line.

           (U) Program Executive Officer for Ammunition Organization. The Program
           Executive Officer for Ammunition is the materiel developer for the PGMM
           Program. He manages the life-cycle acquisition process for ammunition for the
           Army and other Military Departments as well as the DoD Ammunition Industrial
           Base. Reporting to the Program Executive Officer for Ammunition is the Project
           Manager Combat Ammunition Systems–Indirect Fire. He is responsible for
           equipping the warfighter with all tube-launched, indirect-fire munitions and
           mortar weapon systems for the Army’s current and future forces. Reporting to
           the Project Manager Combat Ammunition Systems–Indirect Fire is the Product
           Manager for Mortar Systems who is the life-cycle manager for the full range of
           mortar systems including weapons, fire control, and advanced ammunition.

Objective (U)
           (U) The primary audit objective was to evaluate the overall management of the
           PGMM. Specifically, we determined whether management was cost-effectively
           readying the PGMM for the production and deployment phase of the acquisition
           process and implementing acquisition best practices. We also obtained a status
           update on management efforts to remedy two compliance issues identified during
           our initial audit. See Appendix A for a discussion of the scope and methodology
           and prior coverage related to the objectives.




2
     Future Combat Systems Program is composed of 18 subsystems. The Non-Line of Sight Mortar vehicle
    is the system that will use the PGMM 120-millimeter mortar munition.
*
    For Official Use Only information omitted.


                                                    3
Review of Internal Controls (U)
     (U) We determined that a material internal control weakness in the Army
     management of the PGMM Program existed as defined by DoD
     Instruction 5010.40, “Management Internal Control (MIC) Program Procedures,”
     January 4, 2006. The DoD 5000 “series” of guidance states that the primary
     objective of Defense acquisition is to acquire quality products that satisfy user
     needs with measurable improvements to mission capability and operational
     support, in a timely manner, and at a fair and reasonable price. By the Deputy
     Product Manager for Mortar Systems not requiring PGMM Increment I to meet
     the 8-kilometer range key performance parameter in the PGMM operational
     requirements document and the U.S. Army Training and Doctrine Command not
     adequately justifying the need for Increment II, those actions were not indicative
     of effective controls to acquire quality products that satisfy user needs. The
     implementation of the agreed to recommendations and the corrective action
     suggested by the Director, Army Capabilities Integration Center, U.S. Army
     Training and Doctrine Command will improve controls by:

            •   determining whether the 8-kilometer range requirement should be a
                key performance parameter for PGMM Increment I;
            •   determining whether the warfighter has a valid need for the interim
                extended range requirement to be provided by the PGMM
                Increment II;
            •   updating the analysis of alternatives, as appropriate, for the PGMM
                after the Increment II range requirement determination is made; and
            •   updating the PGMM acquisition strategy and contract documentation,
                as needed, based on those determinations.

     We will provide a copy of this report to the senior Army official responsible for
     internal controls in the Department of the Army.




                                          4
           A. Increment I Range Requirement (U)
           (U) The Deputy Product Manager for Mortar Systems (the PGMM
           Program Manager) did not require the contractor to design PGMM
           Increment I to meet the 8-kilometer range key performance parameter
           specified in the operational requirements document. The PGMM Program
           Manager did not require the contracting officer to insert the 8-kilometer
           range requirement into the contract because the mortar launch vehicle for
           the Future Combat Systems that will be used to test the 8-kilometer range
           would not be fielded until after the planned Increment I low-rate initial
           production decision in the third quarter of FY 2008. Another contributing
           factor was that the U.S. Army Training and Doctrine Command, the user
           representative, did not ensure that the 8-kilometer range requirement for
           the PGMM was traceable to the operational requirements document for
           the Future Combat Systems, which was the stated basis for the PGMM
           range requirement. As a result, the Army increased the risk of program
           reevaluation, reassessment, or termination by not satisfying the warfighter
           range requirement for Increment I.

Key Performance Parameter Policy (U)
    (U) DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003;
    DoD Instruction 5000.2; Chairman of the Joint Chiefs of Staff
    Instruction 3170.01E, “Joint Capabilities Integration and Development System,”
    May 11, 2005; Chairman of the Joint Chiefs of Staff Manual 3170.01A,
    “Operation of the Joint Capabilities Integration and Development System,”
    March 12, 2004; and Army Regulation 70-1, “Army Acquisition Policy,”
    December 31, 2003, provide guidance and define responsibilities to ensure that
    the Army meets Defense acquisition objectives.

            (U) DoD Directive. DoD Directive 5000.1 states that the program
    manager is the designated individual with responsibility for and authority to
    accomplish program objectives for development, production, and sustainment to
    meet the user’s operational needs. Further, the Directive states that complete and
    current program information is essential to the acquisition process.

           (U) DoD Instruction. DoD Instruction 5000.2 provides guidance on
    key performance parameters and criteria for weapon system entrance into the
    production and deployment phase of the acquisition process.
            (U) Joint Staff Instruction. Chairman of the Joint Chiefs of Staff
    Instruction 3170.01E states that the performance attributes of a system provide
    the desired capability required by the warfighter and that those attributes must be
    verified by testing and evaluation. The Instruction requires combat developers to
    designate key characteristics that are considered essential to the development of
    an effective military capability as key performance parameters in the capability
    documents.




                                         5
            (U) Joint Staff Manual. Chairman of the Joint Chiefs of Staff
    Manual 3170.01A states that key performance parameters are those system
    attributes considered most essential for an effective military capability. Inability
    to meet a key performance parameter may result in program reevaluation,
    reassessment, or termination.

            (U) Army Regulation. Army Regulation 70-1 states that the U.S. Army
    Training and Doctrine Command is the principal Army combat developer
    responsible for formulating concepts and identifying requirements. As the Army
    combat developer, U.S. Army Training and Doctrine Command represents the
    soldier in the acquisition process and is responsible for developing and updating
    capability documents.

Future Combat Systems Range Requirement (U)
    (U) The PGMM Program Manager did not update the January 2003 combined
    acquisition strategy and acquisition plan to include the 8-kilometer range key
    performance parameter requirement specified in the March 2004 operational
    requirements document for PGMM Increment I. Further, the PGMM Program
    Manager did not include that requirement in the system development and
    demonstration contract for PGMM Increment I, awarded in December 2004.
    Conversely, the U.S. Army Infantry Center component of the U.S. Army Training
    and Doctrine Command did include the 8-kilometer range key performance
    parameter in the operational requirements document for Increment I. In addition,
    the PGMM Program Manager cannot test for the 8-kilometer range requirement in
    the test and evaluation master plan for Increment I because the test vehicle will
    not be fielded until 2014. However, the validity of the 8-kilometer range
    requirement in the PGMM operational requirements document was questionable
    because the requirement was not traceable to the operational requirements
    document for the Future Combat Systems Program, which was the basis for the
    PGMM range requirement.

    (U) PGMM Acquisition Strategy and Acquisition Plan. Army
    Regulation 70-1 states that the acquisition strategy for an evolutionary acquisition
    approach will describe Increment I (the initial deployment capability); how it will
    be funded, developed, tested, produced, and supported; and the approach to
    treatment of subsequent blocks. The January 2003 Acquisition Strategy and
    Acquisition Plan for the PGMM describes the contractual and management
    approach to develop and produce the PGMM. The document states that the
    PGMM is a required capability in the operational requirements document for the
    Future Combat Systems Program and that the Future Combat Systems Block 1
    requires an 8-kilometer range for conventional ammunition and the PGMM. The
    Acquisition Strategy and Acquisition Plan did not specify the 8-kilometer range
    as a key performance parameter for PGMM Increment I.

    (U) System Development and Demonstration Contract for the PGMM. On
    December 1, 2004, the Picatinny Center for Contracting and Commerce awarded
    contract W15QKN-05-C-1171 to Alliant Techsystems Ordnance and Ground
    Systems, LLC, the prime contractor. The contract, with a target cost of about
    $80.8 million, was for system development and demonstration and low-rate initial

                                          6
           production of PGMM Increment I. In the contract, neither the statement of work
           nor the performance specification for Increment I required the contractor to meet
           the 8-kilometer range key performance parameter for Increment I.

                    (U) Statement of Work. The statement of work defines contractor tasks
           to be performed during system development and demonstration and low-rate
           initial production for PGMM Increment I. The statement of work required the
           contractor to develop, manufacture, test, and document a production-ready
           PGMM cartridge and associated accessories, but did not require the contractor to
           meet the 8-kilometer range key performance parameter. Further, the statement of
           work referred to the PGMM performance specification for the PGMM
           requirements.

                   (U) Performance Specification. The performance specification provides
           the system development and demonstration and low-rate initial production
           performance requirements and quality assurance provisions for the PGMM
           Increment I. The performance specification required the PGMM Increment I
           mortar to engage targets at 7.2 kilometers (threshold) or as far as 10 kilometers
           (objective) and did not require Increment I to attain the 8-kilometer range key
           performance parameter requirement.

           (U) PGMM Operational Requirements Document. The March 2004
           Operational Requirements Document for PGMM Increment I identified two range
           requirements. Specifically, the PGMM Increment I must achieve:
                  • 7.2 kilometers (threshold) to 10 kilometers (objective) when launched
                     from existing 120-millimeter mortar systems, and
                  • 8 kilometers (threshold) to 10 kilometers (objective) when launched
                     from the Future Combat Systems Non-Line of Sight Mortar vehicle.

           (U) Future Combat Systems Operational Requirements Document. The
           April 14, 2003; the January 31, 2005; and the July 11, 2006, operational
           requirements documents for the Future Combat Systems Program did not specify
           an 8-kilometer range requirement for the developmental PGMM when fired from
           the Future Combat Systems Non-Line of Sight Mortar vehicle. Those
           three versions of the operational requirements document for the Future Combat
           Systems Program all state that:
                    **************************************
                    **************************************************************
                    *******************   ************* ***************************
                    **************************************************************
                    ********************
                    *********************************************************.*
                    *************
                    ****
                    **************************************************************
                    **** ***************.*

           ************************************************************
*
           ********************************************. After discussing the lack
*
    For Official Use Only information omitted.

                                                 7
    of an 8-kilometer range requirement for the PGMM in the operational
    requirements document for the Future Combat Systems with representatives from
    the U.S. Army Infantry Center, they stated that they did not know why the
    8-kilometer range requirement was in the operational requirements document for
    PGMM Increment I. Further, they stated that they would review whether the
    requirement was needed by the warfighter. However, even without the
    requirement in the operational requirements document for the Future Combat
    Systems Program, they believed that the PGMM would meet the 8-kilometer
    range requirement because of the configuration of the Future Combat Systems
    Non-Line of Sight Mortar barrel. Specifically, the barrel is longer and capable of
    projecting the PGMM mortar to at least 8 kilometers.

    (U) PGMM Test and Evaluation Master Plan. The June 21, 2005, Test and
    Evaluation Master Plan (the Plan) for the PGMM documents the overall structure
    and objectives for the test and evaluation of PGMM Increment I requirements.
    The Plan requires Increment I to be able to engage targets at ranges out to
    7.2 kilometers and 8 kilometers when fired from existing systems and the Future
    Combat Systems, respectively. Those requirements are measures of effectiveness
    and suitability, and critical operational issues for Increment I. The Plan requires
    the PGMM to meet both range requirements as criteria to proceed to the full-rate
    production decision review in the second quarter of FY 2010. However, Army
    testers cannot test to the 8-kilometer range key performance parameter without
    the existence of the Future Combat Systems Non-Line of Sight Mortar vehicle.
    As of October 2006, the U.S. Army Infantry Center stated that the Army did not
    plan to field the Non-Line of Sight Mortar vehicle until 2014.

Effect on Meeting Increment I Range Requirement (U)
    (U) By not contracting for PGMM Increment I to meet the 8-kilometer range key
    performance parameter , PGMM Increment I may not meet the threshold value of
    performance to demonstrate that it is operationally effective and suitable and able
    to meet warfighter requirements. Consequently, the Army increased the risk of
    program reevaluation, reassessment, or termination by not satisfying the
    warfighter range requirement for Increment I.

Conclusion (U)
    (U) The U.S. Army Infantry Center component of the U.S. Army Training and
    Doctrine Command needs to determine whether the warfighter has a need for the
    8-kilometer range requirement when firing a PGMM round from the Future
    Combat Systems Non-Line of Sight Mortar vehicle. If the U.S. Army Infantry
    Center determines that the 8-kilometer range is a valid requirement, then it should
    include the requirement in a revised version of the requirements document for the
    Future Combat Systems Program. If a validated requirement, the PGMM
    Program Office would need to update its acquisition strategy and contract




                                         8
    statement of work to meet the 8-kilometer range and select an alternative test
    vehicle until the Army fields the Future Combat Systems Non-Line of Sight
    Mortar vehicle.

    (U) If the U.S. Army Infantry Center determines that the 8-kilometer range is not
    a valid requirement, then it should revise the PGMM Increment I requirements
    document accordingly. Consequently, the PGMM Program Office would need to
    update its acquisition strategy for PGMM Increment I to reflect the change in the
    warfighter requirements.

Management Comments on the Finding and Audit Response (U)
    (U) Summaries of management comments on the finding and audit responses are
    in Appendix F.

Recommendations, Management Comments, and Audit
  Response (U)
    (U) A.1. We recommend that the Commanding General, U.S. Army
    Training and Doctrine Command determine whether the 8-kilometer range
    requirement in the operational requirements document for Increment I of
    the Precision Guided Mortar Munition Program is a valid Future Combat
    Systems requirement. If valid, the requirements document for the Future
    Combat Systems Program should be revised, as required by Chairman of the
    Joint Chiefs of Staff Instruction 3170.01E, “Joint Capabilities Integration
    and Development System,” May 11, 2005.

    (U) Management Comments. The Director, Army Capabilities Integration
    Center, responding for the Commanding General, U.S. Army Training and
    Doctrine Command, nonconcurred with the recommendation. He stated that U.S.
    Army Training and Doctrine Command did not intend to revise the approved
    operational requirements documents for the Future Combat Systems and PGMM
    Increment I. The Director stated that when the operational requirements
    document for PGMM Increment I was approved, the document was linked with
    the requirements for the Future Combat Systems. However, because of changes
    in the program schedule for the Future Combat Systems, the Army will not be
    able to validate revised Future Combat Systems requirements before the low-rate
    initial production milestone decision for PGMM Increment I.

    (U) Instead of the recommended action, the Director stated that the PGMM
    capabilities required to support Future Combat Systems capabilities would be
    addressed in future incremental capability documents. Accordingly, he stated that
    all capabilities in the operational requirements document for PGMM Increment I
    to support current systems would be addressed in the capability production
    document for PGMM Increment I. In addition, the Director stated that the
    capability production document for PGMM Increment I would be completed in
    time to support the low-rate initial production milestone decision for PGMM



                                         9
Increment I in the fourth quarter of FY 2008. For the complete text of the
Director’s comments, see the Management Comments section of this report.

(U) Audit Response. Although the Director, Army Capabilities Integration
Center nonconcurred with the recommended action, the Director’s planned action
satisfied the intent of the recommendation. Specifically, the Director plans to
address the PGMM capabilities required to support Future Combat Systems
capabilities in the capability production document for PGMM Increment I before
the PGMM Increment I low-rate initial production decision. Consequently, at the
low-rate initial production milestone decision, the milestone decision authority
will know whether the warfighter has a valid need for the 8-kilometer range
requirement when firing a PGMM round from the Future Combat Systems Non-
Line of Sight Mortar vehicle.

(U) A.2. We recommend that the Deputy Product Manager for Mortar
Systems:

       a. Update, as necessary, the acquisition strategy and statement of
work included in the contract based on the decision made by the U.S. Army
Training and Doctrine Command regarding the 8-kilometer range
requirement, in accordance with DoD Directive 5000.1, “The Defense
Acquisition System,” May 12, 2003; and Army Regulation 70-1, “Army
Acquisition Policy,” December 31, 2003.

(U) Management Comments. The Product Manager for Mortar Systems,
responding for the Deputy Product Manager for Mortar Systems, concurred with
the recommendation. For the complete text of the Product Manager’s comments,
see the Management Comments section of this report.

        b. Establish another means of testing, other than the Future Combat
Systems Non-Line of Sight Mortar vehicle, for the Precision Guided Mortar
Munition Program Increment I range requirement if the U.S. Army Training
and Doctrine Command decides to retain the 8-kilometer range requirement
in the requirements document for Increment I, in accordance with DoD
Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
2003.

(U) Management Comments. The Product Manager for Mortar Systems
concurred with the recommendation if the U.S. Army Training and Doctrine
Command retains the 8-kilometer range requirement. He stated that, if the
8-kilometer range requirement remains, the range requirement would be validated
through ballistic modeling of the PGMM in a Future Combat Systems non-line of
sight mortar gun environment. The Product Manager also stated that the ballistic
modeling would be completed before the low-rate initial production milestone
decision. Further, he stated that the ballistic modeling would be used because the
non-line of sight mortar gun system would not be available until August 2009.




                                    10
            B. Warfighter Need for Increment II (U)
            (U) The U.S. Army Training and Doctrine Command did not adequately
            justify the warfighter need for PGMM Increment II to extend the
            operational range of the PGMM to 10 kilometers in Increment II. This
            condition occurred because the U.S. Army Training and Doctrine
            Command had not adequately:

                    •   determined whether the warfighter had a validated need for
                        another interim increase in the PGMM range capability before
                        obtaining full-range operational capability, and
                    •   considered the results of the analysis of alternatives when
                        including Increment II as a required increment in the
                        operational requirements document as part of the evolutionary
                        development of the PGMM.

            As a result, the Army may incur unnecessarily programmed costs of at
            least $26 million for the Increment II range increase while delaying the
            development of the PGMM full-range operational capability needed by the
            warfighter for Increment III.

Evolutionary Acquisition, Analysis of Alternatives, and Key
  Performance Parameters Guidance (U)
     (U) DoD Directive 5000.1, DoD Instruction 5000.2, and Chairman of the Joint
     Chiefs of Staff Instruction 3170.01E provide guidance on evolutionary
     acquisition, analysis of alternatives, and key performance parameters.

             (U) DoD Directive. DoD Directive 5000.1 states that the primary
     objective of Defense acquisition is to acquire quality products that satisfy user
     needs with measurable improvements to mission capability and operational
     support, in a timely manner, and at a fair and reasonable price. The Directive
     designates the responsibility and authority to the program manager to accomplish
     program objectives to meet the user’s operational needs. Further, the Directive
     states that complete and current program information is essential to the
     acquisition process.

             (U) DoD Instruction. DoD Instruction 5000.2 states that when an
     evolutionary strategy is used, the initial capability represents only partial
     fulfillment of the overall capability, and successive technology development
     efforts continue until all capabilities have been satisfied. Further, the Instruction
     states that before the system demonstration and development phase, the
     warfighter should identify a minimum set of key performance parameters and the
     program manager should prepare an acquisition strategy to guide the development
     activity. Those key performance parameters may be refined as conditions
     warrant.

            (U) Joint Staff Policy. Chairman of the Joint Chiefs of Staff
     Instruction 3170.01E states that an analysis of alternatives should be reviewed for

                                          11
    its relevance for each program increment requiring a system development and
    demonstration milestone decision. If necessary, the analysis of alternatives
    should be updated or a new one initiated. The results of the analysis of
    alternatives should ensure that the refined concept or approach meet the
    warfighter’s capability needs and that the appropriate attributes are designated as
    key performance parameters.

Warfighter Need for the Increment II Extended Range
 Capability (U)
    (U) Increment II Requirements. According to a representative from the Office
    of the Assistant Secretary of the Army (Acquisition, Logistics, Technology), the
    Army plans to spend at least $26 million to develop Increment II. The PGMM
    Increment II requirements are defined in the PGMM Increment I operational
    requirements document and the PGMM acquisition strategy. Increment II
    consisted of the same four attributes as PGMM Increment I: lethality, range,
    compatibility, and reliability. The only difference in capability between
    Increment I and Increment II was the value of the range key performance
    parameters. PGMM Increment II was to provide an interim extended range of
    10 kilometers (threshold) to 12 kilometers (objective). The interim extended
    range would increase the threshold range of Increment I by 2.8 kilometers (the
    difference between 7.2 kilometers and 10 kilometers). However, the Increment II
    range increase may not improve warfighter capabilities.

    (U) Improve Warfighter Capability. When asked about the need for PGMM
    Increment II, representatives from the Offices of the Army Deputy Chief of
    Staff (G-8), the U.S. Army Infantry Center component of the U.S. Army Training
    and Doctrine Command, and the PGMM Program Manager were not able to
    support how the increased Increment II range significantly improved warfighter
    capabilities. The Army Deputy Chief of Staff (G-8) representative stated that his
    office provided the direction to pursue the full operational capability of the
    PGMM in increments, but did not direct how the increments should be defined.
    The U.S. Army Infantry Center representative stated that he was not sure whether
    the warfighter had a need for Increment II and that such a determination would be
    made after the completion of Increment I. He believed that the expected range
    capabilities provided by Increment I may overcome the need to pursue
    Increment II because the Increment II extended range requirement would provide
    indirect fire support similar to Increment I. The PGMM Program Manager
    believed that Increment II would provide the maneuver commander with an
    extended range precision munition to meet his expanded battlespace requirements
    and would reduce the risk of not achieving the Increment III requirements.
    However, if the warfighter does not have a need for Increment II, the unnecessary
    development of Increment II would delay fielding Increment III.

    (U) Analysis of Alternatives. The U.S. Army Analysis Center prepared an
    analysis of alternatives to determine and compare the system performance, force
    effectiveness, and logistics impact of the PGMM increments with existing field
    artillery munitions. The analysis of alternatives determined that PGMM
    Increments I and II had the same warhead and semi-active laser. The only
    difference between the two increments was the increased range requirement.

                                 12
     According to the analysis of alternatives, the increased range of Increment II did
     not provide any additional effectiveness to the warfighter over Increment I.
     Specifically,

            •   the simulated performance of Increment II effectiveness showed little
                improvement over Increment I, and
            •   the number of threat systems destroyed by Increment II showed no
                significant difference over Increment I.

     In addition, PGMM Increment II required a higher quantity of PGMM rounds
     fired when compared to the combat basic loads of Increment I and Increment III.
     Accordingly, the analysis of alternatives did not support acquiring PGMM
     Increment II because Increment II did not provide the warfighter with a
     significant improvement in warfighting capabilities.

Effect of Developing Increment II (U)
     (U) By developing and acquiring PGMM Increment II, the Army may incur
     unnecessarily programmed costs of at least $26 million for the Increment II range
     increase if the warfighter does not have a need for that capability. Further,
     without a need for Increment II, the unnecessary development of Increment II
     would delay the development of the PGMM full-range operational capability
     needed by the warfighter in PGMM Increment III.

Conclusion (U)
     (U) When preparing PGMM requirements documents, the U.S. Army Infantry
     Center component of the U.S. Army Training and Doctrine Command should
     determine whether the Army has a valid need to develop and acquire PGMM
     Increment II. If the U.S. Army Training and Doctrine Command determines that
     a valid need exists, it should update the analysis of alternatives for the PGMM to
     determine whether an alternate solution, other than Increment II, is feasible for
     satisfying the warfighter need. After that determination and the update to the
     analysis of alternatives, the PGMM Program Manager should update applicable
     acquisition documentation for the PGMM to reflect the Army determination
     concerning the continued need to develop and acquire Increment II.

Recommendations and Management Comments (U)
    (U) B.1. We recommend that the Commanding General, U.S. Army
    Training and Doctrine Command:
           a. When preparing the Precision Guided Mortar Munition
    requirements documents, determine whether the warfighter has a valid need
    for Increment II, in accordance with Chairman of the Joint Chiefs of Staff
    Instruction 3170.01E, “Joint Capabilities Integration and Development
    System,” May 11, 2005.

                                         13
e          b. Update the analysis of alternatives for the Precision Guided
    Mortar Munition Program if a valid warfighter need exists for Increment II,
    in accordance with DoD Instruction 5000.2, “Operation of the Defense
    Acquisition System,” May 12, 2003.

    (U) Management Comments. The Director, Army Capabilities Integration
    Center, responding for the Commanding General, U.S. Army Training and
    Doctrine Command, concurred with Recommendations B.1.a. and B.1.b. He
    stated that the analysis of requirements conducted in March 2002 supported the
    full-range of PGMM capabilities. Those capabilities included the engagement of
    targets at extended ranges of 12 to 15 kilometers; and incapacitation of personnel
    in earth and timber bunkers, fortified masonry structures, and moving lightly
    armored vehicles. Further, the Director stated that those PGMM capabilities
    would be incrementally addressed under the Joint Capabilities Integration and
    Development System process.

    (U) The Director stated that a positive low-rate initial production milestone
    decision for PGMM Increment I in FY 2008 would provide the Army with a
    precision guided engagement capability against the majority of required targets.
    He also stated that future PGMM increments would address the remaining targets,
    increased range, and non-line of sight mortar capabilities. The Director stated
    that additional analysis would likely be conducted to support those future PGMM
    increments. For the complete text of the Director’s comments, see the
    Management Comments section of this report.

    Audit Response. In his comments, the Director indicated that PGMM
    Increment I may provide the Army with a precision guided engagement capability
    against the majority of required targets and that future PGMM increments,
    supported by additional analysis, would address the remaining targets, increased
    range, and non-line of sight mortar capabilities. During our audit follow-up
    process, we will determine the results of the Army’s analysis of future PGMM
    increments; the need for programmed costs of $26 million for Increment II; and, if
    not, whether those funds were put to better use.

    (U) B.2. We recommend that the Deputy Product Manager for Mortar
    Systems update applicable acquisition documentation for the Precision
    Guided Mortar Munition Program if the U.S. Army Training and Doctrine
    Command decides that the warfighter does not have a valid need for
    Increment II, in accordance with DoD Instruction 5000.2, “Operation of the
    Defense Acquisition System,” May 12, 2003.

    (U) Management Comments. The Product Manager for Mortar Systems,
    responding for the Deputy Product Manager for Mortar Systems, concurred with
    the recommendation. He stated that any follow-on increment of PGMM would
    require a system development and demonstration milestone decision with required
    supporting documentation. Further, the Product Manager stated that the
    supporting documentation would include an updated capabilities development
    document and an updated requirements analysis. He also stated that his office
    always planned to follow the DoD 5000 “series” of guidance that details the




                                       14
requirements for the start of an acquisition program. For the complete text of the
Product Manager’s comments, see the Management Comments section of this
report.




                                    15
Appendix A. Scope and Methodology (U)
   (U) Documentation and Information Reviewed. We determined whether
   management was cost-effectively readying the PGMM for the production and
   deployment phase of the acquisition process. In addition, we followed up on
   corrective actions taken by management to resolve the issues identified earlier
   that related to preparing the information support plan and the system security
   authorization agreement for the PGMM Program. To accomplish those
   objectives, we reviewed the documentation and information dated from July 1976
   through January 2006.

          (U) PGMM Documentation. We reviewed the requirements operational
   capability document for the Battalion Mortar System, February 9, 1996; PGMM
   system threat assessment reports, March 2002 and July 2005; PGMM Acquisition
   Strategy and Acquisition Plan, January 31, 2003; PGMM test and evaluation
   master plans, June 13, 2003, and June 21, 2005; PGMM Increment I Operational
   Requirements Document, March 2004; PGMM Analysis of Requirements,
   March 1, 2002; PGMM Analysis of Alternatives, March 2004; and contract
   W15QKN-05-C-1171 for PGMM Increment I. We also reviewed the operational
   requirements documents for the Future Combat Systems Program dated April 14,
   2003; January 31, 2005; and July 11, 2006.

           (U) Policy and Principles. We reviewed key policy and principles that
   govern the DoD acquisition process. The mandatory policies and management
   principles reviewed were DoD Directive 5000.1, DoD Instruction 5000.2, and
   Chairman of the Joint Chiefs of Staff Instruction 3170.01E.

   (U) Staff Contacted. We contacted the staffs of the Offices of the Assistant
   Secretary of the Army (Acquisition, Logistics, and Technology); the Army
   Deputy Chief of Staff (G-3/5/7); the Army Deputy Chief of Staff (G-8); the U.S.
   Army Training and Doctrine Command; the U.S. Army Infantry Center; and the
   Product Manager for Mortar Systems to determine the basis for defining the key
   performance parameters for the PGMM incremental acquisition approach.

   (U) Deputy Product Manager for Mortar Systems Memorandum. We
   reviewed the Deputy Product Manager for Mortar Systems memorandum, “Status
   Update for Precision Guided Mortar Munition (PGMM) Developing Systems
   Security Accreditation Agreement (SSAA) and Information Support Plan (ISP)
   for Program (Project No. D2005AE-0020),” May 11, 2006, that discussed the
   PGMM Program Office’s progress in developing the information support plan
   and the systems security accreditation agreement for the PGMM Program.

   (U) Audit Performance Period. We performed this audit from April 2006
   through October 2006 in accordance with generally accepted government auditing
   standards. This audit project also included data gathered between
   September 2004 through March 2005 as part of DoD Inspector General (IG)
   Project No. D2005-D000AE-0020.000, “Acquisition of the Precision Guided
   Mortar Munitions Program,” September 16, 2004.



                                      16
      (U) Use of Computer-Processed Data. We did not use computer-processed
      data to perform this audit.

      (U) Government Accountability Office High-Risk Area. The Government
      Accountability Office (GAO) has identified several high-risk areas in DoD. This
      report provides coverage of the DoD Weapon Systems Acquisition high-risk area.

Prior Coverage
      (U) During the last 5 years, the GAO has issued two reports and one
      memorandum and the DoD IG has issued one memorandum that discussed the
      PGMM Program. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO

      (U) GAO Report No. GAO-06-367, “Improved Business Case Is Needed for
      Future Combat System’s Successful Outcome,” March 14, 2006

      (U) GAO Report GAO-03-17, “Munitions Requirements and Combatant
      Commanders’ Needs Require Linkage,” October 15, 2002

      (U) GAO Memorandum, “Defense Management: Munitions Requirements and
      Combatant Commander’s Needs Still Require Linkage,” August 12, 2005

DoD IG

      (U) DoD IG Memorandum, “Audit of the Precision Guided Mortar Munition
      (Project No. D2005AE-0020),” March 11, 2005




                                        17
Appendix B. Information Assurance Compliance
            Issues (U)
    (U) Before the initial audit of the PGMM Program was suspended on
    February 19, 2005, and subsequently cancelled in October 2005, the audit
    identified compliance issues with the preparation of the information support plan
    and the system security authorization agreement. DoD Office of Inspector
    General Memorandum, “Audit of the Precision Guided Mortar Munition (Project
    No. D2005AE-0020),” March 11, 2005, reported those compliance issues to the
    Deputy Product Manager for Mortar Systems (the PGMM Program Manager) so
    that he could prepare the information support plan and the system security
    authorization agreement before the milestone decision review for the production
    and deployment phase of the acquisition process (see Appendix C). On May 11,
    2006, in a memorandum, “Status Update for Precision Guided Mortar Munition
    (PGMM) Developing Systems Security Accreditation Agreement (SSAA) and
    Information Support Plan (ISP) for Program (Project No. D2005AE-0020),” the
    PGMM Program Manager discussed progress in developing the information
    support plan and the systems security accreditation agreement for the PGMM
    Program (see Appendix D).

Information Support Plan (U)
    (U) Information Support Plan Compliance. In our March 11, 2005,
    memorandum, we stated that the PGMM Program Office did not document its
    interoperability, supportability, and net-centric requirements in an information
    support plan as required by DoD Instruction 4630.8, “Procedures for
    Interoperability and Supportability of Information Technology (IT) and National
    Security Systems,” June 30, 2004, and Chairman of the Joint Chiefs of Staff
    Instruction 6212.01C, “Interoperability and Supportability of Information
    Technology and National Security Systems,” November 20, 2003. The guidance
    requires program offices to prepare an information support plan after completing
    the program’s capability development document. The capability development
    document specifies the key performance parameters needed to analyze, identify,
    and describe information technology and national security system interoperability
    in the information support plan. PGMM Program Office representatives were not
    aware of the requirement to prepare an information support plan. As a result, the
    Program Office was not fully aware of the system’s dependencies and interface
    requirements that needed to be identified before testing and verifying
    interoperability, supportability, and net-centric requirements. Accordingly, we
    recommended that the PGMM Program Office complete an information support
    plan before the production and deployment milestone decision review, as
    required.

    (U) Actions Taken. In his May 11, 2006, memorandum, the PGMM Program
    Manager stated that the PGMM Information Support Plan was being developed
    from the operational requirements document for the PGMM Program. In
    addition, he stated that the development of the PGMM Information Support Plan
    was being coordinated with other Program Executive Office for Ammunition

                                        18
    programs to provide consistent interoperability, supportability, and net-centric
    operations for the Army and the Army Chief Information Officer (G-6). He also
    stated that the development of the Mortar Fire Control System for Software
    Block 3 would augment the information support plan to assure interoperability,
    supportability, and net-centric operations. Further, he stated that an internal and
    external review would be started in June 2006 to complete a Stage I review by the
    time of the Program’s critical design review in November 2006. He also stated
    that a Stage II review would be completed before Government developmental
    testing to ensure complete staffing and approval by the production and
    deployment milestone decision review in the third quarter of FY 2008.

System Security Authorization Agreement (U)
    (U) System Security Authorization Agreement Compliance. In our March 11,
    2005, memorandum, we stated that the PGMM Program Office did not prepare a
    system security authorization agreement to document the DoD Information
    Technology Security Certification Accreditation Process, as required by DoD
    Instruction 5200.40, “DoD Information Technology Security Certification
    Accreditation Process (DITSCAP),” December 30, 1997. The guidance requires
    all DoD acquisition systems that collect, store, transmit, or process information to
    comply with the DoD Information Technology Security Certification and
    Accreditation Process. The Program Office did not prepare a system security
    authorization agreement because it believed that the requirement applied only to
    systems that connected with the PGMM system. As a result, the Program Office
    was not able to fully identify specific information technology security
    requirements for the PGMM. Accordingly, we recommended that the PGMM
    Program Manager complete a system security authorization agreement before the
    production and deployment milestone decision review, as required.

    (U) Actions Taken. In his May 11, 2006, memorandum, the PGMM Program
    Manager, stated that the completion of Phase I of the system security
    authorization agreement for PGMM was in its final staffing for approval. He also
    stated that final approval by the Program Executive Officer for Ammunition, the
    Designated Approval Authority, was scheduled to be completed by the end of
    June 2006. On June 21, 2006, Program Executive Officer for Ammunition
    approved the system security authorization agreement (Phase I) for PGMM.

Management Comments on the Appendix and Audit Response (U)

    (U) Summaries of management comments on the appendix and audit responses
    are in Appendix F.




                                         19
Appendix C. DoD Office of Inspector General
            Memorandum Concerning
            Compliance Issues (U)




                      20
Appendix D. Deputy Product Manager for Mortar
            Systems Response to DoD Office of
            Inspector General Memorandum (U)




                      21
Appendix E. Glossary (U)
   (U) Acquisition. Acquisition is the conceptualization, initiation, design,
   development, test, contracting, production, deployment, logistics support,
   modification, and disposal of weapons and other systems, supplies, or services,
   including construction, intended for use in or in support of military missions.

   (U) Acquisition Category II. An Acquisition Category II program is defined as an
   acquisition program that does not meet the criteria for an Acquisition Category I
   program, but does meet the criteria for a major system. A major system is defined
   as a program estimated by the DoD Component Head to require an eventual
   expenditure of research, development, test, and evaluation funds of more than
   $140 million in FY 2000 constant dollars, or of procurement funds of more than
   $660 million in FY 2000 constant dollars, or those designated by the DoD
   Component head to be an Acquisition Category II program.

   (U) Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the resource
   constraints imposed. It is the framework for planning, directing, contracting for,
   and managing a program. It provides a master schedule for research, development,
   test, production, fielding, modification, post-production management, and other
   activities essential for program success. The acquisition strategy is the basis for
   formulating functional plans and strategies.

   (U) Advanced Technology Demonstration. An advanced technology
   demonstration is used to demonstrate the maturity and potential of advanced
   technologies for enhanced military operational capability or cost effectiveness, and
   reduce technical risks and uncertainties at the relatively low costs of informal
   processes.

   (U) Analysis of Alternatives. The analysis of alternatives is the evaluation of the
   operational effectiveness, operational suitability, and estimated costs of alternative
   systems to meet a mission capability. The analysis assesses the advantages and
   disadvantages of alternatives being considered to satisfy capabilities, including the
   sensitivity of each alternative to possible changes in key assumptions or variables.

   (U) Capability Development Document. A capability development document
   contains the information necessary to develop a proposed program, normally using
   an evolutionary acquisition strategy. The capability development document outlines
   an affordable increment of militarily useful, logistically supportable, and technically
   mature capability. The capability development document should be approved
   before the system development and demonstration decision review.

   (U) Capability Production Document. A capability production document is a
   document that addresses the production elements specific to a single increment of an
   acquisition program. The refinement of performance attributes and key performance
   parameters is the most significant difference between the capability development




                                         22
document and the capability production document. The capability production
document must be validated and approved before a low-rate initial production
milestone decision review.

(U) Cartridge. A cartridge is composed of a shell and propellant package that is
fired from a mortar.

(U) Collateral Damage. Collateral damage is unintentional damage or incidental
damage affecting facilities, equipment, or personnel, occurring as a result of military
actions directed against targeted enemy forces or facilities. Such damage can occur
to friendly, neutral, and even enemy forces.

(U) Critical Design Review. A critical design review is conducted to determine
whether the detailed design satisfies the performance and engineering requirements
of the development specification; to establish the detailed design compatibility
among the item and other items of equipment, facilities, computer programs and
algorithms, and personnel; to assess producibility and risk areas; and to review the
preliminary product baseline specifications. A critical design review is normally
conducted during the system development and demonstration phase.

(U) Critical Operational Issue. A critical operational issue is an operational
effectiveness or operational suitability matter (not parameters, objectives, or
thresholds), or both, that must be examined in operational test and evaluation to
determine the system’s capability to perform its mission. A critical operational
issue is normally phrased as a question that must be answered to properly evaluate
operational effectiveness or operational suitability.

(U) DoD Information Technology Security Certification and Accreditation
Process. The DoD Information Technology Security Certification and
Accreditation Process is the standard DoD process for identifying information
security requirements, providing security solutions, and managing information
system security activities.

(U) Evolutionary Acquisition. An evolutionary acquisition delivers capability in
increments, recognizing up front the need for future capability improvements.
There are two approaches to achieving an evolution acquisition: spiral development
and incremental development.

       Spiral Development. A desired capability is identified, but the end-state
requirements are not known at program initiation. Requirements are refined through
demonstration, risk management, and continuous user feedback. Each increment
provides the best possible capability, but the requirements for future increments
depend on user feedback and technology maturation.

        Incremental Development. A desired capability is identified and an end-
state requirement is known. The requirement is met over time by developing
several increments, each dependent on available mature technology.




                                      23
(U) Full Operational Capability. Full operational capability is the complete
attainment of the capability to employ effectively a weapon, item of equipment, or
system of approved specific characteristics, which is manned and operated by a
trained, equipped, and supported military unit or force.

(U) Gun Target Line. A gun target line is an imaginary straight line from gun to
target.

(U) Information Assurance. Information assurance means information operations
that protect and defend information and information systems by ensuring their
availability, integrity, confidentiality, authentication, and nonrepudiation.
Information assurance provides for the restoration of information systems by
incorporating protection, detection, and reaction capabilities.

(U) Information Support Plan. An information support plan describes system
dependencies and interface requirements in sufficient detail to enable testing and
verification of information technology and national security system interoperability
and supportability requirements. The information support plan includes information
technology and national security system interface descriptions, infrastructure and
support requirements, standards profiles, measures of performance, and
interoperability shortfalls.

(U) Information Technology. Information technology is the hardware, firmware,
and software used as part of the information system to perform DoD information
functions. Information technology includes computers, telecommunications,
automated information systems, automatic data processing equipment, and any
assembly of computer hardware, software, and firmware configured to collect,
create, communicate, compute, disseminate, process, store, and control data or
information.

(U) Interoperability. Interoperability is the ability of systems, units, or forces to
provide services to or accept services from other systems, units, or forces and to use
the services so exchanged to operate effectively together.

(U) Joint Capabilities Integration and Development System. The Joint
Capabilities Integration and Development System supports the Chairman, Joint
Chiefs of Staff and the Joint Requirements Oversight Council in identifying,
assessing, and prioritizing joint military capability needs as required by law.

(U) Joint Requirements Oversight Council. The Joint Requirements Oversight
Council validates and approves the Joint Capabilities Integration and Development
System documents for programs of interest to the Joint Requirements Oversight
Council.

(U) Key Performance Parameters. Key performance parameters are a critical
subset of the performance parameters in operational requirements documents and
capability development documents. Each key performance parameter has a
threshold and an objective value. Key performance parameters represent those
capabilities or characteristics so significant that inability to meet the threshold value
of performance can be cause for the concept or system selected to be reevaluated or
the program to be reassessed or terminated.


                                       24
(U) Materiel Developer. A materiel developer is a command or agency responsible
for research and development and production validation of an item.

(U) Measures of Effectiveness and Suitability. Measures of effectiveness and
suitability are limited to the critical metrics that apply to the capabilities essential to
mission accomplishment.

(U) National Security System. A national security system is any
telecommunication or information system operated by the U.S. Government that
involves intelligence activities, cryptologic activities related to national security,
command and control of military forces, equipment that is an integral part of a
weapon system, or is critical to the direct fulfillment of military or intelligence
missions.

(U) Net-Centric. Net-centric means information-based operations that use service-
oriented information processing, networks, and data from the following
perspectives: user functionality (capability to adaptively perform assigned
operational roles with increasing use of system-provided intelligence/cognitive
processes), interoperability (shared information and loosely coupled services), and
enterprise management (net operations).

(U) Objective. The objective is the performance value that is desired by the user
and which the program manager is attempting to obtain. The objective represents an
operationally meaningful, time-critical, and cost-effective increment above the
performance threshold for each program parameter.

(U) Operational Effectiveness. Operational effectiveness is the overall degree of
mission accomplishment of a system when representative personnel use the system
in the environment planned or expected for operational employment of the system,
considering organization, doctrine, tactics, survivability, vulnerability, and threat.

(U) Operational Requirements Document. The operational requirements
document states the user’s objectives and minimum acceptable requirements for the
operational performance of a proposed concept or system.

(U) Operational Test and Evaluation. Operational test and evaluation is field
testing, under realistic conditions, of any item or component of weapons, equipment,
or munitions to determine its effectiveness and suitability for use in combat by
typical military users and the evaluation of the results of such tests.

(U) Program. A program is a weapon system acquisition funded by research,
development, test, and evaluation; or procurement appropriations; or both; with the
express objective of providing a new or improved capability in response to a stated
mission need or deficiency.

(U) Program Manager. Program manager refers to the acquisition program
manager during the system acquisition, the system manager during the operation of
the system, or the maintenance organization’s program manager when a system is
undergoing a major change.




                                        25
(U) Reliability. Reliability is the ability of a system and its parts to perform its
mission without failure, degradation, or demand on the support system.

(U) Research, Development, Test, and Evaluation Budget. Research,
development, test, and evaluation funds are those appropriated for basic research;
applied research; advanced technology development; system development and
demonstration; research, development, test, and evaluation management support;
and operational systems development.

(U) System. A system is the organization of hardware, software, materiel,
facilities, personnel, data, and services needed to perform a designated function with
specified results, such as the gathering of specific data, its processing, and delivery
to users.

(U) System Development and Demonstration. The system development and
demonstration phase of the DoD systems acquisition process begins after the
milestone decision to enter this phase. This phase consists of system integration and
system demonstration and contains a design readiness review at the conclusion of
the system integration effort.

(U) System Security Authorization Agreement. The system security
authorization agreement is a formal agreement among the designated approving
authority, the certification authority, the information technology system user
representative, and the program manager. The agreement is used throughout the
entire DoD Information Technology Security Certification Accreditation Process to
guide actions, document decisions, specify information technology security
requirements, document certification tailoring and level-of-effort, identify potential
solutions, and maintain operational systems security.

(U) Test and Evaluation Master Plan. A test and evaluation master plan
documents the overall structure and objectives of the test and evaluation program. It
provides a framework within which to generate detailed test and evaluation plans,
and it documents the schedule and resources for the test and evaluation program.
The test and evaluation master plan identifies the necessary activities for
developmental test and evaluation, operational test and evaluation, and live-fire test
and evaluation. Further, the test and evaluation master plan links program schedule,
test management strategy and structure, and required resources with critical
operational issues, critical technical parameters, and objectives and thresholds in the
operational requirements document.

(U) Threshold. Threshold is the minimum acceptable value that, in the user’s
judgment, is necessary to satisfy the need. If threshold values are not achieved,
program performance is seriously degraded, the program may be too costly, or the
program may no longer be timely.

(U) User Representative. The user representative is the liaison for the user or the
user community, particularly during the initial development of a system. The user
representative is the individual or organization that represents the user community
in the specification, acquisition, and maintenance of a system. The user
representative defines the system mission and functionality and is responsible for
ensuring that the user’s interests are maintained throughout system development,
modification, integration, acquisition, and deployment.

                                       26
Appendix F. Management Comments on
            Finding A and Appendix B and
            Audit Response (U)
           (U) Our detailed response to the comments from the Product Manager for Mortar
           Systems (Product Manager) on statements in Finding A and Appendix B of a draft
           of this report follow. The complete text of those comments is in the Management
           Comments section of this report.

Management Comments on Finding A and Audit Response (U)
           (U) Comments on PGMM Increment I Range Requirement. The Product
           Manager commented on the Finding A statement in the draft report that:
                    The April 14, 2003; the January 31, 2005; and the July 11, 2006, operational
                    requirements documents for the Future Combat Systems Program did not
                    specify an 8-kilometer range requirement for the developmental PGMM when
                    fired from the Future Combat Systems Non-Line of Sight Mortar vehicle.

           The Product Manager stated that the operational requirements document for the
           Future Combat Systems states that:
                  **************************************************************
                    **************************************************************
                    **************************************************************
                    ****************************************.

           He also stated that the operational requirements document further stated that the
           ******************************************************************
           ********************************************************
           ************.” Further, the Product Manager stated that PGMM Increment I
           was properly focused on meeting the 8-kilometer range requirement threshold for
           the Future Combat Systems because the time between the system development
           and demonstration phase of the acquisition process and fielding the Future
           Combat Systems non-line of sight mortar and that system development and
           demonstration schedules are not the same.

           (U) Audit Response. The April 14, 2003; the January 31, 2005; and the July 11,
           2006, versions of the operational requirements document for the Future Combat
           Systems Program all state that:
                    **************************************************************
                    **************************************************************
                    **********************************************************
                    **************************************************************
                    **********************************.
                    **************************************************************
                    **************************************************************
                    **************************************************************

*
    For Official Use Only information omitted.

                                                     27
                    **********
                    **************************************************************
                    ************************.
                    **************************************************************
                    ****
                    **************************************************************
                    **********************.

           ***************************************************************
           *****        ************ *******             ****        ******************
           *************** *******************************************. As
           stated in Finding A, the operational requirements documents for the Future
           Combat Systems Program did not specify an 8-kilometer range requirement for
           the developmental PGMM when fired from the Future Combat Systems Non-Line
           of Sight Mortar vehicle.

Management Comments on Appendix B and Audit Response
           (U) Comments on Information Assurance Compliance Issues. The Product
           Manager commented on the Appendix B statement in the draft report that:
                    Before the initial audit of the PGMM Program was suspended on February 19,
                    2005, and subsequently cancelled in October 2005, the audit identified
                    compliance issues with the preparation of the information support plan and the
                    system security authorization agreement.

           The Product Manager stated that in preparing for the PGMM system development
           and demonstration milestone decision, the information support plan and the
           system security authorization agreement were not included in the document
           support package. He also stated that those documents were not included in the
           package because:

                    •   the PGMM was not considered an information technology system;
                    •   the material solution for processing and transferring information
                        between the Mortar Fire Control System and the PGMM had not been
                        selected; and
                    •   without that material solution, the details of a system security
                        authorization agreement were unknown.

           Therefore, the Product Manager for Mortar Systems concluded that most of the
           Clinger-Cohen documentation, including the information support plan and the
           system security authorization agreement, were not applicable to the PGMM
           Program.

           (U) The Product Manager stated that, after the system development and
           demonstration milestone decision, he received guidance stating that an
           information support plan and a system security authorization agreement was
           required because the PGMM was connected to an information system.

*
    For Official Use Only information omitted.

                                                     28
Consequently, the Office of the Product Manager for Mortar Systems will include
those documents in the document support package for the low-rate initial
production milestone decision.

(U) Audit Response. As stated in our DoD IG Memorandum, “Audit of the
Precision Guided Mortar Munition (Project No. D2005AE-0020),” March 11,
2005 (see Appendix C), the Deputy Product Manager for Mortar System did not
prepare an information support plan and a system security authorization
agreement before the PGMM system development and demonstration decision, as
required. In response, the Deputy Product Manager for Mortar Systems took
action to develop those documents. In his May 11, 2006, memorandum, “Status
Update for Precision Guided Mortar Munition (PGMM) Developing Systems
Security Accreditation Agreement (SSAA) and Information Support Plan (ISP)
for Program (Project No. D2005AE-0020),” the Deputy Product Manager
discussed progress in developing the information support plan and the systems
security accreditation agreement for the PGMM Program (see Appendix D).




                                  29
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff
   Director for Force Structure, Resources, and Assessment (J-8)

Department of the Army
Commander, Army Training and Doctrine Command
  Commander, Army Infantry Center
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Program Executive Officer for Ammunition
      Project Manager Combat Ammunition Systems–Indirect Fire
         Product Manager for Mortar Systems
  Program Manager for Future Combat Systems
      Project Manager for Manned Systems Integration
         Product Manager for Non-Line of Sight Cannon and Mortar
Assistant Secretary of the Army (Financial Management and Comptroller)
Deputy Chief of Staff (G-3/5/7)
Deputy Chief of Staff (G-8)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Special Operations Command
Inspector General, U.S. Joint Forces Command


                                          30
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                       31
___________________________________________________________________



U.S. Army Training and Doctrine Command
Comments (U)




                             33
___________________________________________________________________




                             34
___________________________________________________________________




                             35
___________________________________________________________________




                             36
___________________________________________________________________




                             37
___________________________________________________________________



Product Manager for Mortar Systems Comments (U)




                             38
___________________________________________________________________




                             39
___________________________________________________________________




*
    For Official Use Only information omitted.




                                             40
___________________________________________________________________




                             41
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
John E. Meling
Jack D. Snider
Suellen R. Brittingham
Joyce Tseng
Meredith H. Johnson
